               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Package Delivery Growth

                       Audit Report




                                              May 4, 2012

Report Number MS-AR-12-003
                                                                            May 4, 2012

                                                             Package Delivery Growth

                                                        Report Number MS-AR-12-003




IMPACT ON:
U.S. Postal Service package revenue
and operations.                                            within its key lightweight
                                             segment.
WHY THE OIG DID THE AUDIT:
Our objectives were to assess the            WHAT THE OIG RECOMMENDED:
effectiveness of the Postal Service’s        We recommended the Postal Service
strategies for growing its package           establish a strategic decision-making
delivery business, identify opportunities    process for evaluating new sales
for growth, and estimate the resulting       opportunities, enhance the
potential additional net revenue if the      CustomerFirst! System, reassess sales
Postal Service increased its market          staffing levels, continue to pursue
share.                                       legislative change that will allow it to
                                             ship beer and wine, and evaluate
WHAT THE OIG FOUND:                          offering prepayment of customs duties
The Postal Service’s strategies for          and taxes and a local delivery product.
growing its package business have
helped it keep pace with competitors in      WHAT MANAGEMENT SAID:
growing domestic and international           Management agreed with our findings
package markets. Although the                and recommendations and set forth its
strategies are sound, their effectiveness    plans for corrective actions.
has been impacted by (1) lack of a           Management disagreed with the
strategic decision-making process for        monetary impact in subsequent
evaluating new sale opportunities,           correspondence stating that, even with a
(2) sales tracking system shortcomings,      reduced sales force, they have been
and (3) chronic sales staff vacancies.       able to increase sales by focusing on
The Postal Service can grow its              higher value sales and sales execution.
package business by stabilizing Sales
staffing levels and adding new products.     AUDITORS’ COMMENTS:
We estimate it could increase revenue        Management’s comments are
by $217 million in fiscal year (FY) 2012     responsive to the recommendations and
and by $340 million in FY 2013. This         corrective actions should resolve the
would be in addition to the $90 million in   issues identified in the report. While
additional revenue it did not capture in     progress has been made, we continue
FY 2011 because of sales staffing            to believe the Postal Service could
shortages. Furthermore, we estimate          further increase revenue if it fills vacant
the Postal Service could                     sales staff positions.
                                             Link to review the entire report
May 4, 2012

MEMORANDUM FOR:                     GARY C. REBLIN
                                    VICE PRESIDENT, DOMESTIC PRODUCTS

                                    WILLIAM C. RUCKER
                                    VICE PRESIDENT, SALES

                                    DEBORAH GIANNONI-JACKSON
                                    VICE PRESIDENT, EMPLOYEE RESOURCE
                                    MANAGEMENT

                                    GISELLE E. VALERA
                                    VICE PRESIDENT AND MANAGING DIRECTOR, GLOBAL
                                    BUSINESS




FROM:                               Darrell E. Benjamin, Jr.
                                    Deputy Assistant Inspector General
                                     for Revenue and Systems

SUBJECT:                            Audit Report – Package Delivery Growth
                                    (Report Number MS-AR-12-003)

This report presents the results of our audit of the U.S. Postal Service’s efforts to grow
its package delivery business1 (Project Number 11RG012MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Marketing and Service, or me at 703-248-2100.

Attachments

cc: Paul Vogel
    Anthony Vegliante
    Corporate Audit and Response Management


1                                                        ™
 For the purpose of this audit, we considered First-Class Parcels, not Flat-Machinables, Standard Parcels,
Single-Piece Parcel Post, Express Mail, Priority Mail, Parcel Select, Parcel Return Service, and International Mail and
Services as the Postal Service’s package business.
Package Delivery Growth                                                                                            MS-AR-12-003




                                                 Table of Contents
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Decision-Making Process ................................................................................................ 2

Sales Staffing .................................................................................................................. 5

Opportunities for New Revenue ...................................................................................... 5

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Postal Service Strategies to Grow its Package Business .......................................... 11

   Barriers and Limitations ............................................................................................. 13

   Objectives, Scope, and Methodology ........................................................................ 13

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Monetary Impact ....................................................................................... 16

Detailed Calculations..................................................................................................... 17

Appendix C: Management’s Comments ........................................................................ 18
Package Delivery Growth                                                                                MS-AR-12-003




Introduction

This report presents the results of our audit of the U.S. Postal Service’s efforts to grow
its package delivery business2 (Project Number 11RG012MS000). Our objectives were
to assess the effectiveness of the Postal Service’s strategies3 for growing its package
delivery business, identify opportunities for growth, and estimate the resulting potential
additional net revenue if the Postal Service increased its market share. This audit
addresses strategic and financial risk. See Appendix A for additional information about
this audit.

When Postmaster General Patrick Donahoe took office in January 2011, he
announced ―competing for package business‖ as one of his core strategies for
improving the Postal Service’s financial position. Fiscal year (FY) 2011 package
revenue and volume grew by about 7 percent over FY 2010.4 In FY 2011, the nearly
3 billion packages the Postal Service delivered generated about                 revenue
— nearly                                  This Postal Service segment represents about
                                                                              5



Strong customer demand for goods purchased over the Internet has driven growth in
the package market in an otherwise declining mail market. This growing package
segment provides the Postal Service an opportunity to help counter the reduction in
First-Class Mail (FCM) and the flattening of Standard Mail® volume. Customer
expectations for the package business, however, are rising through demands for ―free
shipping‖ and increased tracking and visibility capabilities. As the volume of shipments
and customer expectations continue to grow, so does competition between the Postal
Service and other leading package delivery providers, such as FedEx and United Parcel
Service (UPS).

Conclusion

The Postal Service’s strategies for growing its package delivery business — which
include increasing visibility, implementing more market-based pricing, and growing
partnerships — have enabled it to grow with the market. While the Postal Service’s
strategies are sound, they could be more effectively implemented if the Postal Service
used a more strategic decision-making process for evaluating new sales opportunities,
enhanced the usefulness of its sales tracking system, and maintained a robust sales
force to reach its customers.
2
  We considered First-Class Parcels, not Flat-Machinables, Standard Parcels, Single-Piece Parcel Post, Express
Mail, Priority Mail, Parcel Select, Parcel Return Service and International Mail and Services as the Postal Service’s
package business.
3
  We did not audit or evaluate the performance of specific products or channels, such as Click-N-Ship or Priority Mail
Flat Rate Boxes.
4
  Package revenue was
5
  We define the domestic package marketplace as ―the transportation and delivery of shipments weighing up to
70 pounds that originate in the U.S.‖
                                                            1
Package Delivery Growth                                                                                MS-AR-12-003




Significant competition in the package marketplace leaves no apparent untapped
market for the Postal Service to enter. However, there are opportunities the
Postal Service could more fully exploit to increase revenue and its market share in the
domestic and international package markets. Current Postal Service initiatives target
many of these opportunities. Efforts include leveraging its first- and last-mile advantages
to become the dominant provider in the package return market; becoming the shipper of
choice for Business-to-Customer (B2C) packages; expanding international products,
services, and partnerships; and increasing the effectiveness of its current sales force.6

Although these initiatives may improve the Postal Service’s financial position, we
believe it should continue to identify opportunities to open new revenue streams. For
example, the Postal Service could evaluate offering a local product the customer either
arranges to have picked up or takes to the local Post Office for sortation and delivery
without involving a mail processing plant. The potential benefit would be a product that
fills the gap created when proposed service and network changes are implemented by
the Postal Service. It may also offer customers a lower priced alternative to competitors
in the                                   The Postal Service could also examine the
potential revenue opportunity for shipping beer and wine — a provision included in
several pieces of pending postal reform legislation.7

If the Postal Service stabilizes its sales staffing levels, we estimate that it could
conservatively increase its revenue by $217 million8 in FY 2012 and $340 million in
FY 2013. This would be in addition to the $90 million of additional revenue that it did not
capture in FY 2011 because of sales staffing shortages. These estimates could be even
greater if the Postal Service enhances its decision-making processes and sales tracking
system and develops new parcel products. Furthermore, we estimate the Postal Service
could
               from its key package segment — B2C lightweight packages. See
Appendix A for additional information.

Decision-Making Process

Postmasters, plant managers, and transportation managers made decisions regarding
sales opportunities that may not always have been in the best financial interest of the
Postal Service and did not always resolve disagreements resulting from conflicting
priorities. Although the Postal Service’s overall strategies for growing its package
delivery business are generally consistent with leading practices, deficiencies in
processes for analyzing and evaluating new sales opportunities have, at times, hindered
6
  These initiatives are included as part of the Postal Service’s Delivering Results, Innovation, Value, and Efficiency
(DRIVE) initiatives. Additional information on these and other actions taken by the Postal Service to grow its package
business is provided in Appendix A.
7
  S. 1789, 21st Century Postal Service Act of 2011, Section 404; HR 3591, Postal Service Protection Act of 2011;
Section 1853, Postal Service Protection Act of 2011; Section 1262, Reform the Postal Service for the 21st Century
Act; S. 1010, Postal Operations Sustainment and Transformation Act of 2011.
8
  This revenue estimate includes ―Total Sold Revenue‖ as reported in CustomerFirst! and total Sales vacancies. We
used total revenue because, although the CustomerFirst! System includes a shape field, it is not always filled out. We
used total Sales vacancies because employees are not always limited to selling package products.

                                                          2
Package Delivery Growth                                                                               MS-AR-12-003



revenue optimization. If management implements processes to support decision
making, we believe the Postal Service will be able to realize additional revenue
opportunities and overall growth.

We identified more than $100 million in lost sales opportunities9 nationwide in FY 2011
due to issues ranging from an inability to arrange for transportation to inadequate
customer service, and believe that some of these occurrences could have been avoided
— and resulted in increased revenue — had there been an objective decision maker in
place. Although these occurrences cost the Postal Service opportunities to make
specific sales, the potential loss of future revenue opportunities because of damaged
relationships is even greater. For example:

   The Postal Service lost sales of $1.5 million due to internal issues regarding whether
    it would provide transportation or risk losing sales to competitors. After meeting with
    representatives from a local company who were interested in using the Postal
    Service, sales officials met several times with transportation employees to discuss
    the Postal Service-provided transportation necessary to close the sale. Concerns
    about funding the transportation — the local plant manager did not have money in
    his budget to acquire new transportation — overruled what was in the best financial
    interest of the Postal Service; therefore, the Sales team was unable to close the
    sale.

   The Postal Service lost a $1 million sale of return merchandise (about 500 packages
    daily) because of its inability to record these pieces in a timely manner. An existing
    Postal Service customer required its returns by 6:30 a.m. and, although the local
    Post Office received the mail on its 5:30 a.m. transportation run, officials from the
    Postal Service’s Finance department required, for internal compliance reasons,
    every piece to be recorded before releasing the mail to the customer. The Postal
    Service could not adjust its operations to process these packages in time and the
    Postal Service lost this business. An additional $1 million sale was lost with this
    same customer when the Postal Service was unable to resolve the return issue.

Based on our analysis, we believe the Postal Service could enhance its revenue growth
through implementing:

1. A strategic decision-making process – Sales staff are responsible for identifying
   revenue opportunities and then, if necessary, working through an operations
   integrations specialist (OIS) to coordinate with Operations and obtain the necessary
   logistic and customer support. This coordination is key because the incentives each
   of these units has in relation to growing package revenue differ significantly. Sales
   employees’ performance evaluations, including that of the OIS, are based entirely on

9
  This number was derived primarily from data obtained from CustomerFirst!, the system the Postal Service Sales
staff uses to track sales opportunities. After a review of information in the system, we focused on the following
no-sale categories tied to operational, service, and customer perception issues: Service Performance Issues,
Unfavorable Perception of the Postal Service, Later Pick Up Needed, Unable to Accommodate Pick Up, and Costly
Pick-Up Fees. We also included additional sales opportunities that were provided to us during our fieldwork that had
not been entered into CustomerFirst!, but have since been added.


                                                          3
Package Delivery Growth                                                                              MS-AR-12-003



     revenue generation. Operations and support employees’ performance evaluations
     are based primarily on cost reduction – they have limited or no revenue generation
     incentives. Implementing a strategic decision-making process that incorporates an
     objective review of the estimated costs and benefits associated with new
     opportunities would help ensure making decisions that are in the best interest of the
     Postal Service.

2. More reliable actionable data from the CustomerFirst! System10 – More clear
   and defined information regarding why sales were not made is needed for decision
   makers to determine why sales are lost and to identify possible remedies.
   CustomerFirst! is not always an effective management tool for doing this and for
   resolving possible obstacles to closing sales because the system contains too many
   options (28) for why a sale did not close. This results in sales staff not always
   choosing the most accurate reason for why they did not complete a sale. After
   reviewing some of the CustomerFirst! entries, we found evidence of such confusion
   in the following:

        A $2 million potential sale was categorized as ―Unfavorable Perception of USPS.‖
         However, the comments added by the sales person stated the customer was
         able to get lower rates through a competitor. If the rate the Postal Service offered
         was the true obstacle to completing the sale, ―Rates‖ should have been chosen
         from the drop-down menu in the CustomerFirst! System. The apparently
         conflicting information recorded in the system makes it unclear what actions
         management needs to take to secure future sales.

        A $100,000 potential sale was categorized as having ―Costly Pick-Up Fees‖ in
         the CustomerFirst! System while the comments recorded in the system stated
         the reason was the Postal Service does not ―pick up seasonal business." The
         comment recorded in the system is vague and does not appear to correspond to
         the reason selected from the drop-down menu, making it unclear what actions
         management needs to take.

     The reasons for failure to close a sale may be complex and, because the drop-down
     menu in CustomerFirst! contains many options, Sales staff do not always choose the
     most appropriate option. Sales staff have the opportunity to add more detail about
     the situation in a comment field, but this information does not always agree with the
     reason selected from the drop-down menu. If Sales staff do not choose the most
     appropriate reason for failure to close a sale or add contradictory information in the
     comment field, CustomerFirst! will not provide clear and accurate reasons for lost
     sales. Without clear and accurate information, management cannot redress either
     patterns of problems or significant individual occurrences and risks losing future
     revenue opportunities because of damaged relationships.


10
  CustomerFirst! is a computer application used by Sales staff to manage and grow sales revenue. When a sale is
not completed, Sales staff use a drop-down menu of choices to record the reason. They can add further details in a
comment field. Management uses this system to follow up on situations where obstacles threaten a sale.

                                                         4
Package Delivery Growth                                                                               MS-AR-12-003




Sales Staffing

The Sales organization has experienced staffing shortages over the last several years
resulting from reorganizations and hiring freezes. In FY 2011, the Postal Service had an
average of 159 of 775 authorized sales positions vacant (a 21 percent vacancy rate).11
The Postal Service has taken action in FY 2012 to reduce these vacancies and, as of
March 2012, had 124 of 727 authorized sales positions vacant (a 17 percent vacancy
rate). Vacancies are more pronounced in certain segments of the Sales organization.
Specifically, 10 of the authorized 25 federal sector sales positions (40 percent) are
vacant. Managers stated that funding for these positions has been allocated, but that it
takes significant time to find and evaluate candidates who will succeed in these
positions. The Postal Service has also recognized Sales staffing issues and has
included, as one of its recent key initiatives, increasing the effectiveness of its sales
force. As it implements this initiative, it will be critical that the Postal Service examine its
staffing levels and hiring process to ensure there are a sufficient number of qualified
staff members to identify and capture package sale opportunities.

We estimated that in FY 2011, Sales vacancies resulted in about $90 million in lost
sales revenue for the Postal Service and, if they continue, there will be about
$217 million in lost revenue in FY 2012 and $340 million in FY 2013.12 We based these
estimates, in part, on our analysis that there are ample opportunities available to
accommodate parcel revenue growth. By stabilizing its sales force, the Postal Service
could take advantage of these opportunities and strengthen its position in the package
market. See Appendix B for monetary impact and our detailed calculations

Opportunities for New Revenue

The expected growth in the domestic and international package markets will result in a
variety of opportunities for the Postal Service to grow its market share. More
specifically, there is forecasted growth13 in specific market segments in which the Postal
Service has a competitive advantage, such as the low-cost, lightweight, B2C market
segments:

    Low-cost: the Postal Service frequently provides the lowest prices for shipments
     weighing 5 pounds or less, and trends toward free shipping are gaining momentum
     and are likely to become the norm.




11
   ―Authorized Sales positions‖ include positions in the national Sales group, excluding specialists, analysts,
administrative assistants, secretaries, global account managers, and area managers.
12
   Our analysis factored in an average of $3.6 million in annual sales from each Sales staff member that was
calculated using the Postal Service’s CustomerFirst! database and that the parcel market is sufficiently large to
accommodate the additional Sales staff without experiencing diminishing revenue returns.
13
   The forecast is based on research conducted by an independent consultant using volume growth rates of the
overall market based on the aggregated compounded annual volume growth rates of FedEx, UPS, and the Postal
Service from 2007 to 2015.


                                                         5
Package Delivery Growth                                                         MS-AR-12-003




   Lightweight: the lightweight market in which the Postal Service thrives (the 0- to 5-
    pound segment) is expected to be the fastest growing weight segment.

   B2C: the B2C segment is experiencing much greater growth compared to the
    business-to-business market — it has doubled in growth over the last


The Postal Service is implementing a variety of new initiatives to use its competitive
advantages and available operational capacity to capture this growing opportunity. The
Postal Service expects these new initiatives to generate an additional               in
revenue in FY 2012 and                   FY 2013 (see Table 1). This revenue would be
in addition to the baseline revenue growth that the Postal Service expects over these
2 years                        in FY 2012 and                      in FY 2013).




We estimate that if the Postal Service is able to maintain its current market share in the
B2C lightweight package market (which is a subset of the overall market analysis
provided by the Postal Service in the preceding table), it would provide between


                                    Considering the implementation and organizational


                                             6
Package Delivery Growth                                                                             MS-AR-12-003



issues discussed earlier in this report, we believe the Postal Service can achieve a
larger segment growth and revenue than it currently projects.

In addition to its current initiatives, we believe the Postal Service should continue to
pursue opportunities to open new revenue streams. For example, the Postal Service
could evaluate the financial impact and potential revenue and costs associated with the
following:

    Offering a new local product that the customer either arranges to have picked up or
     takes to the local Post Office for sortation and delivery without mail processing plant
     involvement. For example, local retailers currently use a combination of the Postal
     Service, FedEx, and UPS to ship prescriptions, photographs, and other products for
     which some customers pay for delivery as an alternative to visiting the store.
     Considering the local delivery network at its disposal, the Postal Service should
     examine the feasibility of offering a local delivery product that is processed entirely
     at local post offices. This product would be unique to the Postal Service and possible
     benefits include filling the potential gap created by the service and network changes
     proposed by the Postal Service with a lower-priced alternative to competitors’
     products.

    Shipping beer and wine consistent with several pieces of proposed legislation14 that
     would allow the Postal Service, under certain conditions, to do so. According to bill
     co-sponsors, this provision would help the Postal Service take advantage of its
     nationwide retail, transportation, and delivery network to bring in new revenue.
     Eliminating the restriction may also help the Postal Service win additional market
     share because its competitors are not prohibited from shipping beer and wine. A
     Postal Service manager in the shipping organization stated that the Postal Service:

     o Has not performed specific market research to determine any potential financial
       impact and is reluctant to assign a dollar amount to this proposal at this time.

     o Has informally sized the market and believes that the potential impact on
       revenue would be ―significant.‖

     o Is prepared to implement such a change if the provision is passed into law.

    An international service, similar to that offered by its competitors, that allows
     pre-payment of customs duties and taxes to help serve the growing international
     parcel market.




14
  S. 1789, 21st Century Postal Service Act of 2011, Section 404; HR 3591, Postal Service Protection Act of 2011; S.
1853, Postal Service Protection Act of 2011; HR 1262, Reform the Postal Service for the 21st Century Act; and S.
1010, Postal Operations Sustainment and Transformation Act of 2011.



                                                         7
Package Delivery Growth                                                         MS-AR-12-003



Recommendations

We recommend the vice president, Sales:

1. Implement a strategic decision-making process to objectively assess revenue and
   costs for potential sales to ensure that decisions are made in the best interests of
   the Postal Service.

2. Develop enhancements to the CustomerFirst! System to ensure that the data and
   information contained within are reliable and useful.

We recommend the vice president, Sales, in coordination with the vice president,
Employee Resource Management:

3. Reassess Sales staffing levels and hiring processes to ensure that there are
   sufficient numbers of qualified staff to identify and capture package sale
   opportunities.

We recommend the vice president, Domestic Products:

4. Evaluate the feasibility of offering a local product the customer either arranges to
   have picked up or takes to the local Post Office for sortation and delivery without
   involving a mail processing plant.

5. Continue to pursue legislative change that will allow the Postal Service to ship beer
   and wine.

We recommend the vice president and managing director, Global Business:

6. Evaluate the feasibility of offering an international service that will allow customers
   the option of prepaying customs duties and taxes.

Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendation 1, management stated they would develop a needs assessment form
to determine the overall benefit of a sale to the organization, taking into account
operational costs that may be incurred by July 1, 2012. Regarding recommendation 2,
management stated they have begun efforts to improve the value of the CustomerFirst!
System consistent with our recommendation and have initiated an external consulting
evaluation to determine how to better align the system with industry best practices. The
system and data requirements are planned to be completed by September 30, 2012
with target implementation completed by January 31, 2015.

Regarding recommendation 3, management stated that staffing continues to be a key
focus of the Sales organization and senior management is committed to hiring to meet
the current authorized levels. This has resulted in the decline of the vacancy rate from


                                             8
Package Delivery Growth                                                        MS-AR-12-003



18.2 percent to 11.8 percent. The Sales organization is also assessing the package and
mail market in relation to the current size of the Sales force and plans to make a
recommendation to the president/chief marketing and sales officer on new staffing
configurations. The Postal Service plans to implement this recommendation by May 1,
2012.

Regarding recommendation 4, management stated that initiatives, such as Hold for
Pickup and GoPost, pave the way for a local shipping product that relies exclusively on
its retail personnel and footprint. Management stated that its focus is developing
shipping solutions for the growing ecommerce market, which leverages the Postal
Service’s last mile delivery capabilities and that the convenience of its retail locations
give it an advantage for the acceptance and delivery of small parcels. Management will
complete its analysis of offering this product by December 31, 2013.

Regarding recommendation 5, management agreed with the importance of continuing to
pursue legislative change that would allow the Postal Service to ship beer and wine.
Based on internal discussions, management is confident it will be able to make the
required operational adjustments to offer beer and wine in the mail, should Congress
enact legislation authorizing the service. The Postal Service recently commissioned a
marketing study to determine the volume and revenue impact associated with this
market opportunity. The results are expected in May 2012 and implementation is
subject to legislation.

Regarding recommendation 6, management stated that a feasibility study and market
research have been conducted and it is working on developing integrated return
solutions that include the estimation of customs duties and taxes. The Postal Service
plans to implement this recommendation in FY 2013.

Management did not comment in its formal response on the monetary impact. In
subsequent correspondence, management stated they disagreed with the monetary
impact as a whole because, even with a reduced sales force, they have been able to
increase sales and double the value of each sale by focusing on higher value sales and
sales execution.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. Although the Postal Service disagreed with our
monetary impact, we believe the Postal Service’s efforts to increase the value of each
sale should enhance its ability to realize the increased revenue disclosed in our report.
We acknowledge management’s efforts to fill sales vacancies and note that we factored
in vacancies filled as of March 21, 2012, in our monetary impact calculation.




                                             9
Package Delivery Growth                                                    MS-AR-12-003



The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                          10
Package Delivery Growth                                                                                   MS-AR-12-003



                                  Appendix A: Additional Information

Background

The Postal Service offers a variety of package products, such as First-Class Parcels,
not Flat-Machinables, Standard Parcels, Single-Piece Parcel Post, Express Mail,
Priority Mail, Parcel Select, Parcel Return Service, and International Mail and Services.
In
                                               Some of these products are considered
market-dominant for rate-making purposes,15 while others are considered competitive.




Sizeable variations also exist in the contribution for each of these package product
lines. The table below shows that the Postal Service receives the greatest contribution
from Express Mail, followed by Priority Mail and International Mail and Services.




Postal Service Strategies to Grow its Package Business

The Postal Service has undertaken a variety of actions to help grow its domestic and
international package business, including the following:




15
  According to Public Law 109-435, Section 3642 (b)(1), December 20, 2006, ―The market-dominant category of
products shall consist of each product in the sale of which the Postal Service exercises sufficient market power that it
can effectively set the price of such product substantially above costs, raise prices significantly, decrease quality, or
decrease output, without risk of losing a significant level of business to other firms offering similar products. The
competitive category of products shall consist of all other products.‖




                                                           11
Package Delivery Growth                                                        MS-AR-12-003




The Postal Service’s ―Increasing Sales Force Effectiveness‖ initiative aims to:

   Increase net contribution per sales representative and total number of sales per
    sales representative.

   Reduce customer defection.

   Build the sales force organization of the future.

   Increase effectiveness of current sales force through recruiting, training, improved
    performance metrics, and so forth.

   Refocus strategic accounts on growth, not maintenance.

For these various strategies, the Postal Service has created key accountability
mechanisms including milestones, timeframes, and revenue baselines and forecasts.
For example,



                                   These strategies and the accompanying
accountability mechanisms are generally consistent with leading practices in the
package marketplace.




                                             12
Package Delivery Growth                                                         MS-AR-12-003



Barriers and Limitations

The Postal Service faces key challenges in operating in the domestic and international
package marketplace, including:

   Mature competitors – in the domestic and international package markets, Postal
    Service competitors frequently take advantage of their market advantages by
    offering customer-specific pricing contracts, bundling other tertiary services, such as
    logistics, and making quicker decisions about opening or closing facilities or
    negotiating with potential customers.

   Legal and regulatory requirements – the Postal Service is subject to a variety of
    legal and regulatory constraints including pricing requirements (both for its
    competitive and market-dominant package products), cost-attribution requirements,
    and other restrictions to include delivering beer and wine and offering non-postal
    services.

Objectives, Scope, and Methodology

Our objectives were to assess the effectiveness of the Postal Service’s strategies for
growing its package delivery business, identify opportunities for growth, and estimate
the potential additional net revenue if the Postal Service increased its market share. To
accomplish our objectives, we obtained and reviewed market research from Colography
and ComScore. We enlisted a contractor to provide information about the package
market and evaluate Postal Service opportunities. We obtained the Postal Service’s
package business volume and revenue results, as well as its goals for FYs 2011 and
2012. We interviewed key officials and subject matter experts on initiatives to grow the
package business and current operating procedures. We obtained and reviewed the
performance measures for various Finance, Sales, and Operations officials.

We identified the computer system the Postal Service used to track sales opportunities
— CustomerFirst! — and then obtained and analyzed data from it. We judgmentally
selected sales from the CustomerFirst! database that had not been closed and followed
up to determine their current status. We assessed the reliability of CustomerFirst! data
by judgmentally following up on selected sales that were not closed to determine their
current status and, if not closed, the reasons why. We determined that the data was
sufficiently reliable for the purposes of this report.

We conducted this performance audit from March 2011 through May 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our




                                             13
     Package Delivery Growth                                                          MS-AR-12-003



     observations and conclusions with management on March 15 and 21, 2012
     and included their comments where appropriate.

     Prior Audit Coverage

                                     Final
                                    Report      Monetary
 Report Title       Report Number    Date        Impact                Report Results
Benchmarking        EN-MA-09-002    3/31/2009         None     The Postal Service has
Postal Service                                                 improved productivity by using
Parcel                                                         various strategies to promote
Productivity                                                   continuous improvement.
                                                               However, the Postal Service
                                                               has additional opportunities to
                                                               increase productivity by
                                                               adopting best practices used in
                                                               the commercial parcel
                                                               processing industry. The
                                                               business practices of Postal
                                                               Service competitors lend
                                                               themselves to increased agility
                                                               in response to prevailing
                                                               economic conditions and
                                                               customers’ needs, while the
                                                               Postal Service is challenged to
                                                               comply with its Universal
                                                               Service Obligation and various
                                                               restrictions that limit its ability to
                                                               manage fixed costs and
                                                               streamline its network.
                                                               Management agreed with our
                                                               suggestions.
Handling and        NL-MA-10-001    1/28/2010        $71,835   The Postal Service mishandled
Transportation                                                 and improperly processed large
of Large and                                                   and lightweight FCM parcels at
Lightweight                                                    two facilities. This resulted in
First-Class Mail                                               employees incorrectly placing
Parcels                                                        FCM parcels on FedEx
                                                               transportation instead of less
                                                               expensive surface
                                                               transportation. Management
                                                               took corrective action during the
                                                               audit and agreed with our
                                                               findings and recommendation
                                                               to reinforce established policies
                                                               and procedures for processing,
                                                               dispatching, and assigning
                                                               FCM parcels.



                                                14
     Package Delivery Growth                                                      MS-AR-12-003



Surface Mail        NL-MA-11-001   12/6/2010   $72,753,356   The Postal Service used
Classes on Air                                               several air transportation
Transportation                                               networks instead of cheaper
Networks                                                     ground transportation with
                                                             space available to move
                                                             Standard, Periodicals, and
                                                             Package Services mail classes.
                                                             Weak controls existed for
                                                             segregating mail and
                                                             headquarters management was
                                                             not always effectively
                                                             monitoring the types of mail
                                                             transported on air networks.
                                                             Management took corrective
                                                             action during the audit and
                                                             generally agreed with our
                                                             findings, recommendations, and
                                                             monetary impact.
Foreign Posts’       GAO-11-282    2/16/2011        None     The foreign posts reviewed
Strategies Could                                             have developed alternative
Inform U.S.                                                  delivery choices for customers
Postal Service’s                                             that, according to the posts,
Efforts to                                                   have reduced costs and
Modernize                                                    improved customer satisfaction
                                                             and service. Management
                                                             agreed that the Postal Service
                                                             must pursue modernization and
                                                             adjust its business model in
                                                             every way currently possible
                                                             and noted that many such
                                                             efforts are underway.
                                                             Management also noted that
                                                             modernization could be more
                                                             quickly and effectively instituted
                                                             if legal and political barriers
                                                             were removed.




                                               15
Package Delivery Growth                                                                                MS-AR-12-003



                                     Appendix B: Monetary Impact

                                                                                             Amount (in
                Finding                              Impact Category                          millions)
     The Postal Service did not                       Revenue Loss16                                    $90
     capture available revenue
     opportunities in FY 2011 as
     a result of Sales vacancies.
     The Postal Service will not                   Increased Revenue17                                      557
     capture available revenue
     opportunities in FYs 2012
     and 2013 if Sales vacancies
     remain.
                                                                              Total                        $647




16
   Amount Postal Service is (or was) entitled to receive but did not realize because policies, procedures, agreements,
requirements, or good business practices were lacking or not followed.
17
   Increased revenue from existing functions or revenue generated from new sources, perhaps because of
implementing a new marketing initiative.



                                                          16
Package Delivery Growth                                                    MS-AR-12-003




                                     Detailed Calculations

To calculate revenue losses and increases, we multiplied the number of vacancies by
the average sales revenue generated by each Sales employee. We reduced this by
annual average salary and benefit costs for each sales staff member. We made
adjustments based on the number of net vacancies the Postal Service reduced in
FY 2012 (35) and the first year of employment. The following presents the key values
used during this calculation (totals may not add due to rounding):


Description                                                                  Values
FY 2011
 Number of new staff                                                               53
 Estimated new revenue ($1.82 million/new staff member)                  $96 million
 Estimated staff costs ($122,000/staff member)                           ($6 million)
 Net financial impact                                                    $90 million
FY 2012
 Number of new staff                                                               18
 Estimated new revenue ($1.82 million/new staff member)                  $33 million
 Number of retained staff from FY 2011                                             53
 Estimated revenue ($3.64 million/retained staff member)                $193 million
 Estimated staff costs ($122,000/staff member)                           ($9 million)
 Net financial impact                                                   $217 million
FY 2013
 Number of new staff                                                               53
 Estimated new revenue ($1.82 million/new staff member)                   $96 million
 Number of retained staff (FYs 2011 and 2012)                                      71
 Estimated revenue ($3.64 million/retained staff member)                $258 million
 Estimated staff costs ($122,000/staff member)                          ($15 million)
 Net financial impact                                                  $340 million*
Source: OIG.
*Difference is result of rounding.




                                              17
Package Delivery Growth                                       MS-AR-12-003



                          Appendix C: Management’s Comments




                                         18
Package Delivery Growth        MS-AR-12-003




                          19
Package Delivery Growth        MS-AR-12-003




                          20
Package Delivery Growth        MS-AR-12-003




                          21
Package Delivery Growth        MS-AR-12-003




                          22
